2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

La >
\

C@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of August, 2020, send out
from Omaha, NE 4 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE SCHOLARS OF THE
CONSTITUTIONAL RIGHTS AND INTERESTS OF CHILDREN IN SUPPORT OF RESPONDENTS in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CATHERINE E. SMITH
Counsel of Record

TANYA WASHINGTON HICKS
GEORGIA STATE UNIVERSITY

UNIVERSITY OF DENVER COLLEGE OF LAW

STURM COLLEGE OF LAW

2255 E. Evans Avenue LAUREN FONTANA

Denver, CO 80208 UNIVERSITY OF COLORADO
303.871.6180 DENVER

csmith@law.du.edu SCHOOL OF PUBLIC AFFAIRS
JESSICA DIXON WEAVER
SMU DEDMAN SCHOOL

OF LAW

CARY MARTIN SHELBY
WASHINGTON AND LEE
SCHOOL OF LAW

ANGELA ONWUACHI-WILLIG

BOSTON UNIVERSITY
SCHOOL OF LAW

Subscribed and sworn to before me this 19th day of August, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Boos Oudrar-h, Chl

Affiant

    

 

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023.

Notary Public 39997
 

 

Attorneys for Petitioners

Mark Leonard Rienzi
Counsel of Record

The Becket Fund for Religious Liberty (202) 955-0095
1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

Attorneys for Respondents

Leslie Cooper
Counsel of Record

Neal Kumar Katyal
Counsel of Record

Deepak Gupta

 

American Civil Liberties Union 212-519-7815
125 Broad Street
New York, NY 10004

Icooper@aclu.org

Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Hogan Lovells US LLP 202-637-5528
555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia, Philadelphia
Commission on Human Relations

Gupta Wessler PLLC (202) 888-1741
1900 L Street, NW

Suite 312

Washington, DC 20036

deepak@guptawessler.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia, Philadelphia
Commission on Human Relations

 

 
